CERTIFICATE OF SERVICE
I, SUSAN J. LEVY, being an attorney-at-law duly admitted to the
Supreme Court of the United States HEREBY CERTIFY that copies of the Application
for Extension of Time to File Petition for Writ of Certiorari and Exhibits for the
Plaintiff-Applicant have this day of July 3, 2019 been sent by first class mail and byemail delivery to counsel for Defendants-Respondents at the following addresses:

Stephen Ehrenberg
Sullivan & Cromwell LLP
125 Broad Street
New York, New York 10004
(212) 558-4000
ehrenbergs@sullcrom.com

David J. Arp
Melanie L. Katsur
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
Mkatsur@gibsondunn.com
Darp@gibsondunn.com

Attorneys for Defendant-s Appellees
Goldman Sachs International,
Goldman Sachs Group, Inc.
Goldman Sachs & Co. LLC f/kla
Goldman Sachs & Co.

Eric J. Stock
lndraneel Sur
Gibson, Dunn & Crutcher, LLP
200 Park Avenue
New York, New York 10166
(212) 351-4000
Attorneys for DefendantsAppellees UBS AG and UBS
Securities LLC
estock@gibsondunn.com
isur@gibsondunn.com

Robert G. Houck
Clifford Chance US LLP
31 West 52"d Street
New York, New York 10019
(212) 878-8000
robert.houck@cliffordchance.com
Attorneys for Defendant-Appellee
ICBC Standard Bank PLC

Michael F. Williams
Peter A. Farrell
Kirkland & Ellis LLP
655 15th Street, NW, Ste 1200
Washington, DC 20005
(202) 879-5000
michael.williams@kirkland.co

Damien J. Marshall
Leigh Nathanson
Boies Schiller Flexner LLP
575 Lexington Avenue
New York, New York 10022
(212) 446-2300
dmarshall@bsfllp. com
nahanson@bsflip.com
Attorneys for Defendant-Appellee
Appellees
HSBC Bank USA, N.A.

Attorneys for DefendantBASF Metal Limited and
BASF Metals Corporation

1

Morgan J. Feder
Dechert LLP
1095 Avenue of the Americas
271h Floor
New York, New York 10036
(212) 698-3500
morgan.feder@dechert.com
Attorneys for Defendant-Appellee
The London Platinum and Palladium
Fixing Company Limited

Dated : July 3, 2019

.~~d-~

Susan J. Levy, Esq.

2

